«^

“-4

1

CAPITAL CASE
No. 20- 5025
IN THE
SUPREME COURT OF THE UNITED STATES OF AMERICA

EDDIE MATTHEW AMOS,
Petitioner,
V.
TOMMY BOWEN, Warden,
Respondent.

On Petition for a Writ of Certiorari to the United States Court of Appeals
for the Eleventh Circuit

PETITION FOR REHEARING

Eddie Matthew Amos, pro se
GDC# 888637
Dodge State Prison
P.O. Box 276
Chester, GA 31012

DATE: October 19, 2020

RECEIVED
DEC -9 2020
SUPREEMEFCTOnRTLnQK

RECEIVED

.u
TABLE OF CONTENTS
TABLE OF AUTHORITIES
PETITION FOR REHEARING AND SUSPENSION

11

1

REASONS FOR GRANTING THE PETITION FOR REHEARING OR
SUSPENSION
1
I.
Intervening circumstances warrant rehearing of the denial of Amos’
petition for a writ of certiorari and suspension of the Court’s decision on
1
rehearing
II.
The Johnson v. State of Georgia and the State of Georgia v. Remv
appellate decisions both demonstrate the Eleventh Circuit’s non-compliance
with Due Process of Law and Equal Protection of the Law with respect to
United States citizens such as the petitioner, who is a convicted felon, on
being denied his right of self-defense despite the existence of statutory law
3
prohibiting convicted felons from possessing a firearm
CONCLUSION

4

CERTIFICATE OF PARTY UNREPRESENTED BY COUNSEL....... 5
CERTIFICATE OF SERVICE

6

TABLE OF AUTHORITIES

Cases

Page

Johnson v. State of Georgia, no. S19A1404 (Feb. 28, 2020).... 3,
Little v. State, 392 S.E.2d 896, 195 Ga. App. 130 (1990)........
State of Georgia v. Remy, no. S19A1410 (March 13, 2020).... V"

Statutes
O.C.GA. 16-3-21(a)

3

O.C.GA. 16-11-138

7

Safe Carry Protection Act of 2014, Ga. L. 2014, p. 599
28 U.S.C. 2254

Court Rules

If

Supreme Ct. R. 44.2

4♦

n

f

PETITION FOR REHEARING AND SUSPENSION

Pursuant to Rule 44.2 of the Rules of the United States Supreme Court,
Eddie Matthew Amos respectfully petitions for rehearing of this Court’s
October 5, 2020, Order (a copy of which is attached hereto) denying his
petition for writ of certiorari and, also, respectfully petitions for suspension
of the Court’s decision on rehearing.

REASONS FOR GRANTING THE PETITION FOR REHEARING
OR SUSPENSION

Intervening circumstances warrant rehearing of the denial of
I.
Amos’ petition for a writ of certiorari and suspension of the Court’s
decision on rehearing.
Rule 44.2 of the Rules of the Supreme Court of the United States allows
petitioners to file petitions for rehearing of the denial of a petition for writ
of certiorari and, also, permits rehearing on the basis of intervening
circumstances of a substantial or controlling effect. Rule 16.3 permits the
suspension of a denial of a writ of certiorari on the order of the Court or of a
Justice if there is any reasonable likelihood of the Court’s changing its legal
position and granting certiorari. Richmond v. Arizona. 434 U.S. 1323, 1326
(1977).
The intervening circumstances in this case are the two (2) recent rulings
by the Georgia Supreme Court on the same identical issue raised by the
petitioner in the federal courts below and herein in this instant petition for
writ of certiorari. In Johnson v. State of Georgia, no. S19A1404 (Feb. 28.
2020), the Georgia Supreme Court ruled that Frederick Johnson, Jr., a
convicted felon charged with murder and possession of a firearm by a
convicted felon, can be immune from prosecution for those offenses or raise
an O.C.GA.-l6-3-21(a) justification defense thereto despite the State’s
O.C.GA.-16-11-138 prohibition against convicted felons being in
possession of a firearm. The Georgia Supreme Court’s ruling was based
upon the clear language of the “Safe Carry Protection Act of 2014, Ga. L.
2014, p. 599” and the fact that Johnson only retrieved the firearm by virtue
34

uof a sudden emergency in order to defend himself against imminent serious
bodily injury and death. Such are the facts of Petitioner’s instant case.
Likewise, in State of Georgia v. Remv. no. S19A1410 (March 13, 2020),
the Georgia Supreme Court ruled that Paul Junior Remy, a convicted felon
charged with murder and possession of a firearm by a convicted felon, can
be immune from prosecution for those offenses despite the State’s O.C.GA.
-16-11-138 prohibition against convicted felons being in possession of a
firearm. The Georgia Supreme Court’s ruling was based upon the clear
language of the “Safe Carry Protection Act of 2014, Ga. L. 2014, p. 599”
and the fact that Remy only retrieved the firearm by virtue of a sudden
emergency in order to defend himself against imminent serious bodily injury
and death. Such are, also, the facts of Petitioner’s instant case.

CONCLUSION
Rehearing or suspension is appropriate here because Amos has met this
Court’s requirements for both rehearing under Rule 44.2 and suspension
under Rule 16.3. Rehearing is justified because of the two recent Georgia
Supreme Court rulings, Johnson v. State, Id., and State v. Remy, Id. More
important, suspension is justified because there is a reasonable likelihood
that the Court will change its position and GRANT certiorari. Given this
and the foregoing evidence and facts, the Court should suspend the rejection
of Amos’ petition for writ of certiorari and grant rehearing of Amos’ writ.
I declare under penalty of perjury that the within and foregoing Petition
for Rehearing is true and correct. Executed this 19 day of October, 2020.
Respectfully submitted,

PETITIONER, pro se

t.

